Tn

OCKLE

2311 Douglas Street NF L 1 Brief E-Mail Address:
Omaha, Nebraska 68102-1214 ega ' ve 3 contact@cocklelegalbriefs.com
st.1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

CARLOS A. MORALES-VAZQUEZ,
Petitioner,
Vu
OPTIMA SEGUROS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes. and this brief contains 7229 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d). as needed.

Subscribed and sworn to before me this 17th day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Kerse. 9. Looe Ondeaw ht. Ohl

      
 

GENERAL MOTARY-State of Nebraska

. RENEE J. GOSS:
whine My Comm. Exp. September 5, 2023

Affiant

 

Notary Public 40750
